CERTIFICATE OF SERVICE
No. 21Derrick Grant,
Petitioner,
v.
United States of America,
Respondent.
I, Anna Greve, certify that on May 14, 2021, I caused one copy of (1) Motion
for Leave to Proceed In Forma Pauperis; (2) Petition for a Writ of Certiorari; and (3)
Proof of Service to be served by first class mail, postage prepaid, on the following
parties:
Elizabeth Prelogar
Acting Solicitor General
Office of the Solicitor General
Department of Justice, Room 5616
950 Pennsylvania Ave., NW
Washington, DC 20530-000

Anna M. Greve
Taft Stettinius & Hollister LLP
425 Walnut Street
Suite 1800
Cincinnati, OH 45202
(513) 357-8768
agreve@taftlaw.corn
Counsellor Petitioner

